            Office of Audits
      FY 2011 Performance Plan




U.S. Department of State and Broadcasting
           Board of Governors
       Office of Inspector General
Table of Contents

Message From the Assistant Inspector General for Audits ................... 1

Introduction .................................................................................................. 1

Our Mission, Vision, and Core Values ..................................................... 2

Our Statutory Responsibilities ................................................................... 2

Our Organization ......................................................................................... 3

Our Stakeholders ......................................................................................... 4

Our General Means and Strategies............................................................ 4

Our Strategic Goals, Strategies, and Performance Indicators ............... 5

Our Methodology for Investing Resources ............................................. 8

Our Fiscal Year 2011 Performance Plan.................................................. 12

Divisions
  Contracts and Grants ............................................................................ 12
  Financial Management ......................................................................... 14
  Human Capital and Infrastructure..................................................... 17
  Information Technology ...................................................................... 18
  International Programs ........................................................................ 20
  Security and Intelligence ...................................................................... 21
Message From the Assistant Inspector General for Audits
U.S. Department of State and Broadcasting Board of Governors

I am pleased to present the Office of Audits performance plan for fiscal year (FY) 2011.
Since the development of our last strategic plan, the Office of Audits has reorganized to
better align our oversight efforts with the Department’s growing global mission and
strategic priorities to include Global Health, Food Security, Climate Change, and
Democracy and Governance. This strategic performance plan sets forth our pathway to
promote positive change, maximize efficiency and value in our work, and lead by
example in creating a model organization within the Office of Inspector General and the
Department. It further provides the means and strategies by which we will achieve
these priorities and the standards by which we will measure our success. This is an
evolving document, which will be updated as necessary to ensure that our work
remains relevant, timely, and responsive to global developments and the priorities of
the foreign affairs community. I want to express my gratitude to all the staff who
assisted in the development of this plan and my profound appreciation to those who
will implement it.

Evelyn R. Klemstine, Assistant Inspector General, September 2010


Introduction
                                                           “OIG is at one of those
The Office of Audits has a leading role in helping         moments where many reports
the Department of State (the Department) and the           are being completed.
Broadcasting Board of Governors (BBG) improve              Inevitably, several of these
management; strengthen integrity and                       reports will be controversial.
                                                           We will be attacked for a
accountability; and ensure the most efficient,
                                                           variety of perceived failings
effective, and economical use of resources. Our            ranging from ignorance, to
activities are global in scope, supporting the highest     partiality and negativity. Our
priorities of the Department. Our oversight                being defensive is never an
extends to the Department’s and BBG’s 60,000+              option. Being determined to be
employees and more than 270 missions and other             honest and intelligent is the
facilities worldwide, funded through combined              only option.” — Harold W.
annual appropriations of more than $50 billion. We         Geisel, Deputy Inspector
                                                           General, July 2010
remain at the forefront of efforts to identify
potential savings and cost efficiencies for the
Department and BBG, and we strive to provide
timely, relevant, and useful feedback on the progress of their programs and initiatives.
Our mandate includes the traditional areas of emphasis for the Department and BBG—
including diplomatic and consular affairs, security, international broadcasting,
administrative and financial management, and information technology—as well as new
initiatives and priorities.

                                                                                        1
Our Mission, Vision, and Core Values

The mission of the Office of Audits is to conduct and direct independent audits and
program evaluations to promote effective management, accountability, and positive
change in the Department, BBG, and the foreign affairs community. We provide
leadership to:

    Promote integrity, efficiency, effectiveness, and economy;
    Prevent and detect waste, fraud, abuse, and mismanagement;
    Identify vulnerabilities and recommend constructive solutions;
    Offer expert assistance to improve Department and BBG operations;
    Communicate timely, useful information that facilitates decision-making and
     achieves measurable gains; and
    Keep the Department, BBG, and the Congress fully and currently informed.

Our vision is to be a world-class organization promoting effective management,
accountability, and positive change in the Department of State, the Broadcasting Board
of Governors, and the foreign affairs community. Our core values are:

 Credibility: We are committed to the highest standards of accountability,
independence, integrity, and professionalism.

 Objectivity: As an independent agent for positive change, our reports and other
products are factual, accurate, informative, and reliable.

 Relevance: Our work is directed at Department and BBG priorities, with an
emphasis on global issues; the effectiveness of foreign assistance programs; resource-
intensive programs and operations; and the Department’s coordination with other U.S.
Government agencies.

 Usefulness: Our products assist decision makers in improving programs and
making the most effective spending decisions in an environment of constrained
financial resources.

 Timeliness: Our audits and evaluations are conducted in a timely manner and
distributed broadly to ensure recommended actions promptly result in savings, cost
recoveries, prevention of losses, and improved efficiencies and security.

Our Statutory Responsibilities

The 1978 Inspector General Act, the 1980 Foreign Service Act, and the 1998 Foreign
Affairs Reform and Restructuring Act charge the OIG with oversight responsibility for


                                                                                         2
the Department of State and the Broadcasting Board of Governors. These
responsibilities include detecting and preventing waste, fraud, and mismanagement
and assessing whether U.S. foreign policy goals are being achieved, resources are used
to maximum efficiency, and all elements of U.S. overseas missions are coordinated. We
are also responsible for evaluating compliance with other legislation—such as the Chief
Financial Officers Act, the Federal Managers’ Financial Integrity Act, and the Federal
Information Security Management Act—designed
to enhance management performance.
                                                          “As always, integrity, quality,
The Office of Audits follows generally accepted           and thoroughness must be
government auditing standards, as outlined in our         the hallmark of our work. A
Office of Audits Manual. We incorporate applicable        report will only be interesting
                                                          if the authors themselves
standards into our planning process and, where
                                                          are enthusiastic about the
appropriate, into the procedures used by others on        product, especially its
our behalf. These standards are designed to set the       recommendations. . . It’s
tone for the use of professional judgment in              clear to me that our work is
performing work on a wide variety of assignments.         being thoroughly read by
It is our policy to review annually the procedures        high level decision makers,
and practices we follow and to initiate prompt            to say nothing of people in
action when necessary to ensure compliance with           Congress and (especially) in
                                                          the media.
governing standards and improve internal
efficiency and effectiveness.                             Your work keeps getting
                                                          better and better. I’m
Our Organization                                          delighted with our important
                                                          and interesting work.” —
The Office of Audits consists of six functional           Harold W. Geisel, Deputy
                                                          Inspector General, June
divisions and an audit operations division that
                                                          2010
conduct audits and program evaluations of the
management and financial operations of the
Department and BBG, including their audited
financial statements, information security, internal operations, and external activities
funded by the Department through contracts or financial assistance. The audits and
program evaluations that we will conduct this coming year will assess to what extent
the Department’s established priorities and objectives are achieved; whether resources
are used economically and efficiently; determine whether intended and realized results
are consistent with laws, regulations, and good business practices; and test financial
accountability and the reliability of financial statements.




                                                                                            3
Our Stakeholders

Our products are directed to and used by a wide range of public and private sector
entities to include the Congress; the Secretary of State and other Department officials,
managers, and staff; the Board of the BBG and BBG management and staff; the Council
of Inspectors General on Integrity and Efficiency; other U.S. Government agencies; and
members of the general public – especially the U.S. taxpayer. We continually seek input
from our stakeholders in planning our work to accommodate special requests received
outside of the planning process, and we welcome feedback on our products, processes,
and services.

Our General Means and Strategies

The fundamental means for the Office of Audits to achieve its strategic and
performance goals will be the audits and program evaluations we perform and direct.
In addition to fulfilling mandatory requirements and responding to requests, we strive
to react to the priorities and demands of the foreign affairs community and proactively
review new programs and potential problem areas identified in the course of our work.
We direct the work of select Certified Public Accounting firms to augment our
oversight efforts within the Department and BBG. We work closely with our colleagues
in the Middle East Regional Office and the Offices of Inspections and Investigations to
build expert knowledge of the Department’s operations; share information to deter,

                                                                                       4
detect, and prosecute fraud; and develop strategies that advance our oversight mission.
We will continue to review and, as appropriate, revise our processes and methodologies
to get the most value from our resources, better serve our customers and other
interested parties, and ensure the achievement of our strategic and performance goals.

We will continue to pursue authorization for the personnel authorities and financial
incentives needed to recruit the staff and skill sets needed to fulfill our work
assignments throughout the world. We will continue to promote professional
development of our staff with a variety of educational and career development
opportunities to include both formal training at high quality institutions and on-the-job
experiences internally and through temporary details to functional positions in the
Department and other U.S. Government agencies.

Finally, we will focus discretionary audits and evaluations on high priority areas to help
decision-makers within the Department, BBG, and the Congress manage scarce
financial resources. In planning our audits and evaluations, we will target high-cost
programs, key management challenges, and vital operations to provide Department
and BBG managers with information that will assist them in making operational
decisions. Our FY 2011 plan recognizes the Department’s High Priority Performance
Goals to include Global Health, Food Security, Climate Change, Democracy and
Governance, and Management-Building-Civilian Capacity.

Our Strategic Goals, Strategies, and Performance Indicators

Goal One: Positive Change

Support and assist the Department and the BBG in strengthening management and consular
capabilities and program effectiveness.

Strategies

 Ensure audits and evaluations address issues of concern to our stakeholders, and
periodically reassess areas of emphasis to reflect changing priorities of the
Administration, Congress, the Department, and BBG.

 Utilize an informed, risk management approach to identify mission-critical systems
and operations, major management challenges, potential vulnerabilities, and priority
areas for evaluation.

 Through our audits, evaluations, and compliance follow-up reviews, assess
Department and BBG progress in correcting identified management control
weaknesses.



                                                                                         5
 Identify systemic issues and best practices found in the course of individual audits
and evaluations, and recommend global solutions to strengthen Department and BBG
management and programs.

 Deploy integrated, multifunctional teams of auditors, evaluators, information
technology specialists, and security professionals to leverage OIG resources in
addressing high priority work.

Performance Indicators

1-1. Percentage of recommendations resolved within nine months.

Recommendations are the primary outputs of our audits and program evaluations, and
they serve as the vehicle for correcting vulnerabilities and realizing positive change in
the Department and BBG. Resolution of recommendations reflects management’s
willingness to take the actions we recommended to correct identified problems and
improve programs and operations. The percentage of recommendations resolved
within nine months for audits and evaluations indicates to what extent management
has agreed to take timely action to correct identified problems in line with our
recommendations or has identified acceptable alternatives that are expected to result in
improved programs and operations. Our FY 2011 target is 85%.

1-2. Percentage of OIG reports that focus on Department and BBG management
challenges.

Our audits and program evaluations assess Department and BBG efforts to achieve
results-oriented management, identify major management challenges, and recommend
improvements. The percentage of our work related to agency management challenges
demonstrates the degree to which we are focused on improving the areas of greatest
vulnerability in agency operations. Our FY 2011 target is 94%.

Goal Two: Efficiency and Value

Produce timely, quality work and products with relevant, credible, reliable information that is
useful to Department, BBG, and Congressional decision-makers, particularly in managing
resources.

Strategies

 Perform risk assessments when planning audits and evaluations to identify
opportunities for cost savings and the avoidance of costs.




                                                                                                  6
 Review and recommend internal control improvements in programs and functions of
the Department and BBG that are vulnerable to misappropriation, loss, or waste of
resources.

 Assess the economy, efficiency, and effectiveness of interagency program support
services, including whether the most cost-effective means are used in providing services
to foreign affairs agencies overseas.

 Maintain internal quality assurance and review programs to ensure reliability and
credibility of Office of Audits products.

 Maintain transparency in conducting and reporting the results of audits and
evaluations.

 Maximize the use of appropriate technologies to start jobs sooner, finish them
quicker, disseminate the results broadly, and facilitate the storage and retrieval of
reports.

Performance Indicator

2-1. Monetary benefits: questioned costs, funds put to better use, cost savings, and
efficiencies.

Our audits and evaluations result in potential and actual cost savings and efficiencies to
the Department and BBG. Monetary benefits from our work result in more effective
and efficient use of U.S. taxpayer dollars and are a primary mandate of the Office of
Audits. Our FY 2011 target is $10 million.


Goal Three: People
Lead by example in providing a model work environment that facilitates timely, quality work
and products.

Strategies

 Focus recruitment efforts on requisite skill sets and individuals who possess the
knowledge, skills, and abilities to masterfully perform audits and evaluations.

 Encourage all employees to complete Individual Development Plans, ensure that all
employees fulfill mandatory training requirements, and support employees in their
pursuit of developmental training.




                                                                                              7
 Encourage and support employees’ efforts to achieve appropriate professional
certifications, such as the designation of Certified Public Accountant, Certified Internal
Auditor, and Certified Information Systems Auditor.

 Provide the support structure and technological tools and equipment that will assist
employees in producing quality and timely products.

Performance Indicator

3-1. Annual rate of attrition for Civil Service employees.

The Office of Audits products and services are only possible through its people. Our
success is predicated on attracting and retaining highly qualified employees with
functional and/or subject-matter expertise in auditing, program evaluation, foreign
policy, information technology, security, and public diplomacy. Employee retention is
measured in terms of annual attrition of Civil Service employees.


Our Methodology for Investing Resources

The methodology we use to guide the investment of our resources is predicated on the
performance goals and strategies noted above and four additional factors: (1)
Congressional and executive mandated audits; (2) the Department’s High Priority
Performance Goals for FY 2011; (3) dedicated funding levels and potential risks; and
(4) holistic audit attention to all bureaus and offices charged with advancing the
Department’s and BBG’s mission.

Mandated Assignments

The Office of Audits currently has 16 Congressional and executive mandated
assignments. These assignments are generally conducted annually, and many relate to
financial management and information technology security requirements stemming
from the Government Management Reform Act (GMRA) and the Federal Information
Security Management Act (FISMA). A listing of mandatory assignments and the
division responsible for conducting them follows:

   1. Financial Statement Audit of the Department of State [Financial Management Division]
   2. Financial Statement Audit of the Broadcasting Board of Governors [Financial
      Management Division]
   3. Financial Statement Audit of the Foreign Service Retirement and Disability Fund
      [Financial Management Division]
   4. Financial Statement Audit of the International Boundary and Water Commission
      [Financial Management Division]


                                                                                             8
    5. Financial Statement Audit of the International Cooperative Administrative Support
        Services [Financial Management Division]
    6. FISMA Evaluation of the Department of State’s Information Security Program
        [Information Technology Division]
    7. FISMA Evaluation of the Broadcasting Board of Governors Information Security
        Program [Information Technology Division]
    8. FISMA Evaluation of the Intelligence Community’s Information Security Program
        [Information Technology Division]
    9. Annual Attestation of the Department of State Bureau of International Narcotics and
        Law Enforcement Affairs Drug Control Funds and Related Performance Report
        [Financial Management Division]
    10. Performance Reports for the Office of National Drug Control Policy (ONDCP)
        [Financial Management Division]
    11. OMB Circular A-133 Quality Control Review of Single Audits [Contracts and Grants
        Division]
    12. OMB Circular A-133 – Single Audit Act Initial (Desk) Reviews [Contracts and Grants
        Division]
    13. Audit of the National Endowment for Democracy [Contracts and Grants Division]
    14. Audit of Expenditures Made Under the Emergencies in the Diplomatic and Consular
        Services Appropriation (K-Fund) [Financial Management Division]
    15. Audit of Recovery Act [Contracts and Grants Division]
    16. Audit of Department Compliance With Trafficking Victims Protection Reauthorization
        Act of 2008 [International Programs Division]

Priorities of the Department of State and BBG

We organized the Department’s top priorities to align with the themes of the
Quadrennial Diplomacy and Development Review (QDDR). The QDDR is now
underway and is intended to offer guidance on how the Department will update
methodologies, deploy staff, add new tools and hone old ones, and exercise new and
restored authorities to ensure the effective execution of solutions to foreign affairs
priorities. Figure 1 depicts the five QDDR themes and our associated placement of
High Performance Goals within each: the Department’s High Priority Performance
Goals 1; State & USAID Strategic Plan; Deputy Secretary Lew’s Budget Planning; and
Government Accountability Office (GAO) High Risk. Our investment of resource also
recognizes Strategic Communications and Technology employed by BBG.




1
 Source: Office of Management and Budget, FY 2011 Department of State High Priority Performance
Goals

                                                                                                  9
 Figure 1

                                       High Priority Performance Goals; State &                 Lead
                                           USAID Strategic Plan; DS Lew’s                     Bureaus/
        QDDR Themes                       Budget Planning; GAO High Risk                       Offices
1.   Building a Global Architecture    •   Global Health                                     S/GAC
     of Cooperation                    •   Promote Economic Growth and Prosperity            USG= $63B
                                       •   Promote International Understanding               over 6 yrs.
Exploring what capabilities are        •   Enhance Strategic, Bilateral, Multilateral
needed to address global                   Partnerships
challenges and leveraging              •   Addressing HIV/AIDS Challenges
international partnerships to
                                                                                             ISN
                                       •   Global Security
provide solutions.                     •   Strategic Communications and Technology (BBG)
                                       •   Fostering Public Diplomacy & International
                                                                                             S/SECC
                                           Broadcasting
                                       •   Climate Change                                    USG= $30 B
                                                                                             over 3 yrs.
2.   Leading and Supporting            •   Provide Humanitarian Assistance
     Whole-of-Government               •   Strengthen Global Security
     Solutions                         •   Stabilizing Regional Conflicts
                                       •   Reforming United Nations Management               S/SRAP
Examining whole-of-government          •   Afghanistan-Pakistan                              7.5% Budget
approaches to U.S. foreign policy.     •   Iraq – Transition from Military to Civilian       Increase
                                                                                             above FY
                                                                                             2010
3.   Investing in the Building         •   Democracy and Governance                          DRL
     Blocks of Stronger Societies      •   Govern Justly and Democratically
                                       •   Invest in People
Investigating the ability of State     •   Build Civilian Capacity
and USAID to have long-term            •   Sustaining Counternarcotics Activities
impacts overseas and how current       •   Enhancing Democracy & Human Rights
approaches can be improved to
promote economic growth, food,
governance, and security.
4. Preventing and Responding to        •    Food Security                                    S/P
    Crises and Conflicts               •   Achieve Peace and Security                        State = $3.5B
                                           (Counterterrorism)                                over 3 yrs.
Examining conflict prevention and      •   Promote Long-term Development & Human
response and how development &             Security                                          2,000 member
diplomacy tools can be quickly &       •   Maintaining Resources to Meet Urgent Human        Civilian
efficiently deployed in a variety of       Needs                                             Reserve Corps
situations & environments.             •   Maximizing Humanitarian Assistance

5.   Building Operational and          •   Management-Building-Civilian Capacity             HR/RMA
     Resource Platforms for Success    •   Strengthen Consular and Management Capabilities   25% Increase
                                       •   Strengthening Visa & Passport Operations          in FSOs by
Assessing what changes are             •   Addressing Staffing Challenges                    2014
necessary to allow the Department
& USAID to fully carry out their
functions through hiring &
training of personnel, budget
planning, contracting oversight,
and resource management.




                                                                                                             10
Funding Levels and Potential Risks

Figure 2 depicts the Department’s High Priority Performance Goals, along with
additional information relating to the bureaus and offices charged with advancing the
performance goals, the funding associated with each, and some of the specific programs
used to implement them.

Figure 2
      OMB High            Lead        FY10 Budget
     Priority Goals      Bureaus        Request                Select Programs to Advance Priorities
 •   Global Health       S/GAC,      $5.29 billion      $4.122 billion for integrated prevention, care, and
                         OES,                           treatment programs in all PEPFAR supported
                         S/GWI                          countries.

 •   Global Security     ISN, PM,    $8.4 billion       Interagency Counterinsurgency Initiative; $765.4
                         VCI, INL,                      million; Non- proliferation, Antiterrorism, Demining,
                         S/CT                           and Related Programs (NADR); Global Threat
                                                        Reduction Program; $550 million for the Mérida
                                                        Initiative; Global Peace Operations Initiative.
                         S/SECC
 •   Climate Change                  $579 million       Arctic Contaminants Action Program; Arctic
                         OES, EEB
                                                        Monitoring & Assessment Program; Greenhouse Gas,
                                                        Major Economies Initiatives and Programs. $177.7
                                                        million for OES for the Global Climate Change
                         BBG                            Initiative
 •   BBG                             $745.5 million     $732.2 million for International Broadcasting
                                                        Operations. VOA $1.8 m; MBN $113 m; RFE/RL $91.2
                                                        m; Engineering and Technical $188.5 million.
 •   Afghanistan-        S/SRAP,     $6.2 billion       $4.8 billion for the Economic Support Fund; $790
     Pakistan            DRL,                           million for the International Narcotics Control and Law
                         INL                            Enforcement.
 •
 •   Iraq – Transition   NEA,        $984 million       $569 million for the International Narcotics Control and
     from Military to    INL,                           Law Enforcement; $382 million for the Economic
     Civilian            DRL                            Support Fund;


 •   Democracy and       DRL,        $2.814 billion     Middle East Partnership Initiative; President’s
     Governance          S/GWI,      for Good           Interagency Task Force on Trafficking in Persons;
                         G/TIP,      Governance         Human Rights Democracy Fund.
                         EEB,        (State/ USAID);
                         INL,        $4.1 billion for
                         OES, F      humanitarian
                                     assistance
                                     programs.
 •   Food Security       S/P, RM,    $1.31 billion      Water for the Poor Act – irrigation and clean water
                         EEB,OES                        programs; resources for adapting crops to climate
                         S/GAC                          change; diplomatic tools to ensure policy environment
                                                        for agriculture-led growth.
 •   Management-         HR/RM       $45 million        Civilian Stabilization Initiative; Stabilization Bridge
     Building-Civilian   A,                             Fund
     Capacity            S/CRS,                         Rapid Response Fund
                         INL, PM,
                         S/CT

                                                                                                                11
Holistic Audit Attention

Much of our oversight over the past decade has fittingly involved the Department’s
most prominent bureaus: Administration (A), Resource Management (RM), Diplomatic
Security (DS), International Narcotics and Law Enforcement (INL), Overseas Buildings
Operations (OBO), and Political Military Affairs (PM). 2 BBG and International
Broadcasting Bureau (IBB) entities and grantees have also been afforded significant
attention. In FY 2011, we are initiating oversight activities in a number of bureaus that
are integral to advancing the Department’s high priority performance goals to include
the Bureau of Oceans and International Environmental & Scientific Affairs (OES),
Global Women’s Issues (GWI), Office to Monitor & Combat Trafficking in Persons
(G/TIP), and Economic, Energy, & Business Affairs (EEB). This new focus reflects our
desire to add value to the Department’s priorities while meeting the demands of the
Congress and foreign affairs community to proactively review new programs and deter
waste, fraud, and mismanagement. Additionally, we will be contributing to the Federal
oversight mission in Afghanistan by joining the Special Inspector General for
Afghanistan Reconstruction to audit the implementation of the Civilian Uplift in
support of the U.S. reconstruction effort in Afghanistan. We will also work alongside
our colleagues at the Department of Defense Inspector General to perform a joint audit
of the Afghanistan National Police Force.


Our Fiscal Year 2011 Performance Plan


Contracts and Grants

    Bureau/OIG                                 Primary                                      Initiate
    Audit Division   Audit Title               Objective                 Justification     Month/Year

                                               To monitor Independent
                                               Public Accounting firm
                                               audits of Recovery Act
    IRM, RM, DS,     Recovery Act Monitoring
                                               funding over $500
    INR, A, CA,      of Audits Performed by                                 Mandatory         December
                                               million while assessing
    and Overseas     OIG/IPAs (Carryover)                                                       2009
                                               compliance with
    Bureaus/CG
                                               Federal procurement
                                               and Recovery Act
                                               regulations.




2
    Source: Office of Audits Compliance Assignment Tracking System (CATS), June 22, 2010


                                                                                                    12
Bureau/OIG                                  Primary                                           Initiate
Audit Division   Audit Title                Objective                   Justification        Month/Year

                                            To concurrently
                                            evaluate two Recovery
                 OIG Staff Recovery Act     Act-funded programs
                 Audits: Overseas           and contracts valued at
IRM, RM, A,
                 Telephone Contracts and    over $20 million for            Mandatory            March
and Overseas
                 Overseas Desktop           compliance with                                      2010
Bureaus/CG
                 Procurements (Carryover)   Federal procurement
                                            regulations and
                                            Recovery Act
                                            requirements.


                                            To evaluate internal
                                            controls governing
                                            overtime for LES staff
RM, A, and       Audit of Embassy
                                            working at Embassy
                 Baghdad Overtime
Overseas                                    Baghdad but paid
                 Controls for Locally                                                             May
Bureaus/CG                                  through home post           Program Cost Risks
                 Employed Staff (LES)                                                             2010
                                            employee compensation
                 (Carryover)
                                            plans and assess if
                                            payments were accurate
                                            and internal financial
                                            controls were adequate.


                                            To evaluate Department
                                            and BBG (two
                                            concurrent audits)
                                            policies and procedures
A, RM, PM,
                                            that govern programs
and other
                                            for suspensions and
various          Audit of Department of
                                            debarments and
Domestic and     State and BBG Programs                                                         December
                                            determine compliance        Program Cost Risks
Overseas         for Suspensions and                                                              2010
                                            with Federal
Bureaus          Debarments
                                            procurement regulations
and BBG/CG
                                            and guidelines to ensure
                                            deficient contractors are
                                            not eligible for
                                            Department and USG
                                            awards.


                                            Pursuant to the
                                            requirements of OMB
                 OMB Circular A-133 –
                                            Circular A-133, to
Domestic and     Quality Control Review
                                            provide selected (1)
Overseas         of Single Audits OMB
                                            Quality Control Review          Mandatory           December
Bureaus          Circular A-133 – Single
                                            of Single Audits and (2)                              2010
DOS and BBG      Audit Act Initial (Desk)
                                            Single Audit Act Initial
                 Reviews
                                            (Desk) Reviews that
                                            can identify questioned
                                            costs for repayment to
                                            the DOS and BBG.

                                                                                                         13
Bureau/OIG                                   Primary                                             Initiate
Audit Division   Audit Title                 Objective                   Justification          Month/Year

                                             To perform an audit of
                                             an approximately $10
                                             million annual grant to
                                             Radio Farda for
                 Audit of BBG Grants to      Surrogate Broadcasting
                 Radio Farda for Surrogate   to Iran to determine      Program and Grant Cost       January
BBG/CG
                 Broadcasting to Iran        compliance with grant             Risks                 2011
                                             terms and agreements
                                             and assess risk for
                                             fraud, waste, and
                                             mismanagement of
                                             Federal funds.


                                             To evaluate NED and
                                             its sub-recipients
                                             grantees in order to
                                             determine compliance
NED, ECA, and
                 Audit of National           with grant terms and
    NEA
                 Endowment for               agreements and assess           Mandatory             June 2011
 Bureaus/CG
                 Democracy (NED) grants      risk for fraud, waste,
                                             and mismanagement of
                                             Federal funds.




                                             To determine
                 Audit of Fulbright          compliance with
Bureaus of
                 Commissions in the          grant terms for select
EAP, NEA, and                                                          Program and Grant          August
                 Bureaus of East Asian and   Fulbright
ECA                                                                        Cost Risks              2011
                 Pacific Affairs (EAP) and   Commissions in EAP
Affairs/CG
                 Near East Affairs (NEA)     and NEA, and
                                             evaluate ECA
                                             oversight.



Financial Management

Bureau/OIG                                   Primary                                             Initiate
Audit Division   Audit Title                 Objective                   Justification          Month/Year

                                             To determine whether
                                             the financial
                                             statements and related
                 Audit of the Department’s   notes are presented
                                                                                                  January
DOS/FM           FY 2010 Financial           fairly, in all material      Mandatory
                                                                                                    2010
                 Statements (Carryover)      respects, in
                                             conformity with the
                                             accounting principles
                                             generally accepted in
                                             the United States.

                                                                                                            14
Bureau/OIG                                   Primary                                    Initiate
Audit Division   Audit Title                 Objective                 Justification   Month/Year

                                             To determine whether
                                             the financial
                                             statements and related
                                             notes are presented
                 Audit of BBG’s FY 2010
                                             fairly, in all material                     January
BBG/FM           Financial Statements                                   Mandatory
                                             respects, in                                  2010
                 (Carryover)
                                             conformity with the
                                             accounting principles
                                             generally accepted in
                                             the United States.


                                             To determine whether
                                             the financial
                                             statements and related
                                             notes are presented
                 Audit of IBWC’s FY 2010
                                             fairly, in all material                      June
IBWC/FM          Financial Statements                                   Mandatory
                                             respects, in                                 2010
                 (Carryover)
                                             conformity with the
                                             accounting principles
                                             generally accepted in
                                             the United States.

                 Compliance of
                                             To determine to what
                 Emergencies in the
                                             extent the Department
                 Diplomatic and Consular                                                 August
RM/FM                                        is expending K Funds       Mandatory
                 Services (K Fund)                                                        2010
                                             in accordance with
                 Expenditures with Legal
                                             legal requirements.
                 Requirements (Carryover)

                 Review of DOS FY 2011
                                             To authenticate the
                 Accounting and
                                             Department’s FY
                 Authentication of Drug                                 Mandatory       December
                                             2010 accounting of
                 Control Funds and Related                                                2010
INL and                                      drug control funds
                 Performance Report for
RM/FM                                        and related
                 the Office of National
                                             performance in
                 Drug Control Policy
                                             compliance with
                 (ONDCP)
                                             ONDCP guidance.



                                             To ensure that the
CA and           Audit of the Collection     Department has            Program Risk     November
RM/FM            and Use of Machine          adequate controls over                       2010
                 Readable Visa (MRV)         collecting, tracking,
                                             and using MRV fees.
                 Fees




                                                                                                   15
Bureau/OIG                                   Primary                                    Initiate
Audit Division   Audit Title                 Objective                 Justification   Month/Year

                                              To determine
                                              whether the
                                              financial statements
                                              and related notes are
                 Audit of the Department’s    presented fairly, in
                                                                                         January
DOS/FM           FY 2011 Financial            all material respects,    Mandatory
                                                                                           2011
                 Statements                   in conformity with
                                              the accounting
                                              principles generally
                                              accepted in the
                                              United States.


                                              To determine
                                              whether the
                                              financial statements
                                              and related notes are
                                              presented fairly, in
                 Audit of BBG’s FY 2011                                                  January
BBG/FM                                        all material respects,    Mandatory
                 Financial Statements                                                      2011
                                              in conformity with
                                              the accounting
                                              principles generally
                                              accepted in the
                                              United States.


                                              To determine
                                              whether the
                                              financial statements
                                              and related notes are
                 Audit of Foreign Service
                                              presented fairly, in
RM and           Retirement and Disability                                               March
                                              all material respects,    Mandatory
HR/FM            Fund’s (FSRDF) FY 2010                                                  2011
                                              in conformity with
                 Financial Statements
                                              the accounting
                                              principles generally
                                              accepted in the
                                              United States.


                                              To determine
                                              whether the
                                              financial statements
                 Audit of International       and related notes are
                 Boundary Water               presented fairly, in
                                                                                          July
IBWC/FM          Commission’s (IBWC)          all material respects,    Mandatory
                                                                                          2011
                 FY 2011 Financial            in conformity with
                 Statements                   the accounting
                                              principles generally
                                              accepted in the
                                              United States.




                                                                                                   16
Bureau/OIG                                        Primary                                                 Initiate
Audit Division    Audit Title                     Objective                        Justification         Month/Year

                                                   To determine to
                                                   what extent ECA
                                                   ensures that the
                  Controls Over Grantees
                                                   grantees are using                                      August
ECA/FM            Using Government Travel                                          Program Risk
                                                   the Citibank credit                                      2011
                  Cards
                                                   cards for needed
                                                   travel related to the
                                                   grants requirements.




Human Capital and Infrastructure

Bureau/OIG                                        Primary                                                 Initiate
Audit Division    Audit Title                     Objective                        Justification         Month/Year

                                                   To determine whether
                                                   internal controls are in
                 Department of State’s
                                                   place and being properly
                 Recovery of Insurance
                                                   implemented to ensure that
                 Payments Relating to Medical
                                                   insurance payments for                                     July
MED/HCI          Evacuations of Overseas                                                Program Risk
                                                   medical services rendered                                  2010
                 American Employees and
                                                   in medical evacuations are
                 Eligible Family Members
                                                   properly reimbursed to the
                 (Carryover)
                                                   Department.



                                                   To determine whether (a)
                                                   adequate internal controls
                 Department of State’s Internal    are in place to prevent and
                 Controls Over Lease Costs for     detect malfeasance and/or
                                                                                                            September
OBO/HCI          Residential Property Overseas     fraud in the leasing of              Program Risk
                                                                                                              2010
                 (Carryover)                       overseas residential
                                                   properties and (b) current
                                                   leases appear to reflect
                                                   appropriate market levels.


                                                   To determine to what
                 Department of State’s Effort      extent the Department’s
                                                                                        High Priority       February
HR/HCI           to Recruit and Retain Highly      efforts to recruit and retain
                                                                                      Performance Goal        2011
                 Skilled Personnel                 foreign service generalists
                                                   have been effective.




                                                                                                                    17
Bureau/OIG                                        Primary                                               Initiate
Audit Division    Audit Title                     Objective                      Justification         Month/Year

                                                   To determine to what
                 Audit of Department of State’s    extent the Department has
                 Procedures to Discontinue         in place effective internal                              April
HR/ HCI                                                                               Program Risk
                 Payroll Actions for Separated     controls to timely remove                                2011
                 Employees                         separated employees from
                                                   the payroll.




Information Technology

Bureau/OIG                                           Primary                                               Initiate
Audit Division   Audit Title                         Objective                         Justification      Month/Year

                                                     To evaluate the
                                                     effectiveness of security
                 Review of the Information           controls and techniques for
DOS/IT           Security Program at the             selected information               Mandatory            July
                 Department of State                 systems and compliance                                  2010
                 (Carryover)                         with Federal Information
                                                     Security Management Act
                                                     (FISMA) and related
                                                     information security
                                                     policies, procedures,
                                                     standards, and guidelines.

                                                     To evaluate the
                                                     effectiveness of security
                                                     controls and techniques for
                 Review of the Information
                                                     selected information
                 Security Program at the
                                                     systems and BBG                                         July
BBG/IT           Broadcasting Board of                                                  Mandatory
                                                     compliance with FISMA                                   2010
                 Governors (BBG) (Carryover)
                                                     and related information
                                                     security policies,
                                                     procedures, standards, and
                                                     guidelines.

                                                     To determine whether the
                                                     Travel Document Issuance
                 Audit of the Department of          System (TDIS) and the
                 State’s Travel Document             Passport Information
                                                     Electronic Records System                             October
CA/IT            Issuance System and the                                              Program Risks
                                                     (PIERS) are adequately                                 2010
                 Passport Information Electronic
                                                     secured to ensure integrity,
                 Records System.
                                                     confidentiality, and
                                                     reliability of operations.




                                                                                                                18
Bureau/OIG                                        Primary                                         Initiate
Audit Division   Audit Title                      Objective                      Justification   Month/Year

                                                  To evaluate the
                                                  effectiveness of security
                                                  controls and techniques for
                 Review of the Information
                                                  selected information
                 Security Program at the
                                                  systems and BBG                                 February
BBG/IT           Broadcasting Board of                                           Mandatory
                                                  compliance with FISMA                             2011
                 Governors (BBG)
                                                  and related information
                                                  security policies,
                                                  procedures, standards, and
                                                  guidelines.


                                                  To evaluate the
                                                  effectiveness of security
                                                  controls and techniques for
                 Review of the Information
                                                  SCI systems and
                 Security Program for Sensitive
                                                  compliance by the
                 Compartmented Information                                                        February
DS,INR/IT                                         Department’s Intelligent       Mandatory
                 (SCI) Systems at the                                                               2011
                                                  Community with FISMA
                 Department of State
                                                  and related information
                                                  security policies,
                                                  procedures, standards, and
                                                  guidelines.



                                                  To evaluate the
                 Review of the Information        effectiveness of security
DOS/IT           Security Program at the          controls and techniques for    Mandatory        February
                 Department of State              selected information                              2011
                                                  systems and compliance
                                                  with Federal Information
                                                  Security Management Act
                                                  (FISMA) and related
                                                  information security
                                                  policies, procedures,
                                                  standards, and guidelines.

                                                  To determine to what
                                                  extent: (1) the Department
                                                  considered relevant
                                                  business processes in
                                                  developing the Time &
                                                  Attendance System
                 Audit of Department of State’s
                                                  requirements; (2)
IRM and          Approach to Developing an                                                         April
                                                  coordination within the       Program Risks
HR/FM            Automated Time &                                                                  2011
                 Attendance System                Department was effective
                                                  to ensure user needs were
                                                  addressed; and, (3) the
                                                  Department addressed
                                                  information security
                                                  requirements.


                                                                                                       19
International Programs

Bureau/OIG                                        Primary                                                Initiate
Audit Division   Audit Title                      Objective                            Justification    Month/Year
                                                  To determine whether the
                                                  Department is adequately
                 Audit of Interagency Planning    monitoring the low-carbon
SECC, OES,       and Coordination of the Low-     strategies (LCDS) programs,                           September
                                                  effectively coordinating with       Program Risk
F/IP             Carbon Strategies (LCDS)                                                                 2010
                 Program (Carryover)              its partner organizations, and
                                                  has established appropriate
                                                  measures for success.

                                                  To determine whether
                                                  contractors or subcontractors
                                                  are engaged, knowingly or
TIP/IP           Audit of Compliance with         unknowingly, in acts related to
                 Trafficking in Persons           trafficking in persons and                            September
                                                  whether the State is effectively      Mandatory
                 Requirements for Department                                                              2010
                 of State Contracts (Carryover)   monitoring contracts to verify
                                                  that contractors are not
                                                  engaged in trafficking.



                                                  To determine whether S/GAC
                                                  has properly accounted for and
                                                  allocated more than $5 billion
GAC, OES,        Audit of the Department of       in PEPFAR funds used to
GWI/IP           State’s Global Health and        strengthen the commitment            High Priority      April
                 Child Survival Account –         and capacity of partner            Performance Goal     2011
                 PEPFAR Funding                   governments in the fight
                                                  against HIV/AIDS.



                                                  To determine to what extent
                 Audit of the Department of       the Department’s initiatives to
                 State’s Efforts to Enhance the   improve its management and
                 Management and Oversight of      oversight of its aviation fleet
INL/IP           its Aviation Fleet Assets.       have been effectively
                                                                                                          April
                                                  implemented and comply with         Program Risk
                                                                                                          2011
                                                  technical aviation standards,
                                                  contract administration
                                                  requirements, long range
                                                  planning and budgeting
                                                  procedures, and aviation safety
                                                  standards.




                                                                                                            20
Security and Intelligence

Bureau/OIG                                   Primary                                         Initiate
Audit Division   Audit Title                 Objective                     Justification    Month/Year
                 State Department
                                             To determine to what
                 Controls Over Diplomatic
                                             extent DS is maintaining,
                 Security Domestic                                                           August
DS/SI                                        controlling, and             Program Risks
                 Firearms and Equipment                                                       2010
                                             accounting for firearms
                 (Carryover)                 and equipment.


                                             To determine to what
                                             extent the Department
                 Department of State’s       has implemented internal
                 Efforts to Ensure           controls to effectively
RM, EEB,                                                                   High Priority     October
                 Successful Monitoring of    monitor and measure the
OES, GAC/SI                                                              Performance Goal     2011
                 its Global Hunger and       progress of its Global
                 Food Security Initiatives   Hunger and Food
                                             Security Initiatives
                                             (GHFSI).


                                             To determine the
                 Effectiveness of the        effectiveness of
                 Department’s                multilateral financial
SECC, OES,                                                                 High Priority     January
                 Multilateral Financial      assistance provided by
EEB/SI                                                                   Performance Goal     2011
                 Assistance to Combat        the Department to
                 Climate Change              combat climate change
                                             worldwide.




                                                                                                21
